No. 19-357
INTHE

�mt <ltnurt nf tlft luiteh &tat.es
CITY OF CHICAGO,

v.

Petitioner,

ROBBIN L. FULTON,JASON S. HOWARD,
GEORGE PEAKE, AND TIMOTHY SHANNON,
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I, Craig Goldblatt, a member of the
bar of this Court, certify that the accompanying Reply Brief for Petitioner contains
2,996 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.l(d).
Executed on November 25, 2019.

/M�

CRAIG GOLDBLATT
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Avenue NW
Washington, DC 20006
(202) 663-6000
craig.goldblatt@wilmerhale.com

